<html>
<title> - GAO ASSESSMENT OF UNITED STATES JUDICIAL AND POLICE REFORM ASSISTANCE IN HAITI</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 GAO ASSESSMENT OF UNITED STATES JUDICIAL AND POLICE REFORM ASSISTANCE 
                                IN HAITI

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2000

                               __________

                           Serial No. 106-183

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
69-534 CC                   WASHINGTON : 2001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                Caleb McCarry, Professional Staff Member
                     Liberty Dunn, Staff Associate




                            C O N T E N T S

                              ----------                              

                                WITNESS

                                                                   Page

Jess T. Ford, Associate Director, International Relations and 
  Trade Issues, National Security and International Affairs 
  Division, U.S. General Accounting Office.......................     5


                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    28
Jess T. Ford.....................................................    30

 
 GAO ASSESSMENT OF UNITED STATES JUDICIAL AND POLICE REFORM ASSISTANCE 
                                IN HAITI

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding. 
    Chairman Gilman. The Committee will come to order.
    This morning we will hear testimony from the General 
Accounting Office regarding the preliminary results of GAO's 
review of United States assistance that we have been providing 
to Haiti's justice system.
    On September 19, 1994, President Clinton ordered 20,000 
American troops to go to Haiti to restore the democratically 
elected government of President Jean-Bertrand Aristide. These 
men and women from our armed forces were directed into harm's 
way to uphold the rule of law. The purpose of this hearing is 
to examine just what Haiti's governmental leaders have done 
since 1994 to further the rule of law with our assistance.
    Between 1995 and 1999, our government has provided $97 
million in bilateral assistance to Haiti's justice system. Some 
$65 million of that money was directed to training and 
equipping the Haitian National Police.
    Haiti's judicial system has been exceedingly weak and 
subject to manipulation. Drug traffickers and persons 
implicated in political killings have been enjoying impunity. 
Opponents of Haiti's current government have, from time to 
time, been kept in jail despite judicial orders for their 
release. Many more Haitians languish behind bars waiting for 
trials that may never happen.
    United States judicial reform in Haiti has foundered in a 
sea of the Haitian Government's indifference. Haiti's leaders 
simply do not have the political will to pursue meaningful 
judicial reform. Apparently they prefer to manipulate the 
justice system and extract wealth from their country's state 
owned monopolies.
    The recent election process revealed how completely the 
Haitian National Police has been politicized by the ruling 
Lavalas Family party. In the run up to the May 21 elections, 
some 15 persons, principally from opposition political parties, 
were murdered. Police have made no progress in resolving those 
crimes.
    Prior to and after the election, violent street 
demonstrations were staged by the governing Lavalas Family 
party. On a number of occasions, the police just stood by and 
failed to protect peaceful opposition rallies from those pro-
government vigilantes.
    After the polls closed on election day, police officers 
were seen carting away election returns. Immediately following 
the election, a large number of opposition politicians were 
arbitrarily arrested by the U.S. trained police.
    Last year, the Lavalas Family party led protests seeking 
the ouster of police director Pierre Denize and State Security 
Secretary Robert Manuel. Mr. Manuel was forced to resign and 
fled Haiti in October 1999. Subsequently, the HNP's Inspector 
General, Eucher Joseph, was forced to quit his post.
    Major narcotics traffickers have been operating freely in 
Haiti. The Administration has now decertified Haiti with a 
waiver for 2 consecutive years. Drug corruption of Haitian 
officials is a serious problem that needs to be dealt with 
directly and honestly.
    In a rare bit of good news earlier this month, four police 
officers implicated in a May 28, 1999 killing of 11 people in a 
Port-au-Prince slum were convicted and sentenced to 3 years in 
prison. This is an important precedent. Without an independent 
police Inspector General and a justice system with integrity, 
however, this judgment will likely stand as an isolated 
exception.
    The creation of the Haitian National Police gave us all 
hope that Haitians would be able to count on a professional, 
apolitical police force to foster a climate of security that 
would allow the Haitian economy to recover and to grow. Sadly, 
the initial work that was done by the Administration to recruit 
and train a cadre of competent police officers has been 
severely undermined.
    The Haitian National Police has become a largely 
ineffective law enforcement organization. Absent fundamental 
changes to reverse corruption and politization, no amount of 
United States assistance is going to be able to restore 
credibility to the Haitian National Police.
    At this time I would like to recognize the Ranking Minority 
Member of our Committee, the gentleman from Connecticut, Mr. 
Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Clearly I think everybody who has been watching Haiti is 
disappointed at the electoral process. The sad fact that our 
poorest neighbors in this hemisphere have continued to suffer 
and be deprived of democratic opportunities, free and fair 
elections and a better standard of living is something of great 
frustration.
    I think that the Congress has not necessarily been the most 
helpful in forming a Haiti policy. Clearly the failures within 
Haiti are the leading cause, but it is clear to me that America 
and other democracies in the hemisphere have to continue to 
make every effort to establish a civil order, to establish a 
political process and an economy that gives more Haitians an 
opportunity to participate.
    So while all of us are frustrated by the continued lack of 
democratic progress in Haiti, I do think that Congress needs to 
play a more positive role in trying to maintain a commitment to 
developing those things that we speak of so often.
    You know, we spent a half a century with a large military 
force in Germany to make sure that it was not overrun, and I 
think we do not need a large military force and billions of 
dollars to try and help Haiti, but we do have to have a 
sustained effort, and hopefully we will see that in a 
bipartisan manner.
    Chairman Gilman. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I will be very brief 
because I am anxious to hear the testimony from these 
witnesses.
    I think it is really important that we put events in Haiti 
in a historical context. Some of what you stated in your 
opening remarks I agree with, some of which I disagree with, 
but without the benefit of a historical context I think we do a 
disservice to those that are interested in this particular 
issue.
    Prior to 1995, much of what occurred in Haiti was 
remarkable in its degree of human rights violations, human 
rights abuses, and the reality of an entire population being 
terrorized. While there is much to criticize currently in 
Haiti, whatever is happening in Haiti today is better than what 
it was in the 1980's and during the coup years up to 1994. I 
think it is important for us to recognize that.
    I share the frustration that has been articulated by many. 
I happened to be an observer during the elections that occurred 
on May 21. It was obvious to the observers during the course of 
that particular weekend that those elections were essentially 
valid and legitimate elections.
    It was clear that Fanmi Lavalas had in most districts a 
significant plurality, but, true to Haiti's history, it is a 
zero-sum game, unfortunately, when it comes to democracy, and 
all this interested or shall I say objective observers 
criticized the tabulation of those particular results. There is 
international unanimity when it comes to the conclusion that 
the tabulation of the votes that were counted in Haiti violated 
the Haitian electoral law.
    I consider that one of the most significant tragedies in 
the history of Haiti because for one brief moment there was an 
opportunity to change Haitian history, to change the history of 
a people that are the most impoverished in this hemisphere and 
among the most impoverished in this world. Only if. Only if.
    It was close, but victory was snatched away by an attitude, 
a zero-sum game, the winner take all mentality that has 
characterized Haitian politics during the course of its 200 
year history. How sad. How sad. To use the football metaphor, 
we were in the red zone. We were 2 yards from a touchdown which 
would have allowed--which I am absolutely convinced would have 
led to an irrefutable conclusion by the international community 
that this election would have been fair, free, and sure there 
were some administrative foul ups, but it was fundamentally a 
fair election.
    I think that is truly sad, and unfortunately the leading 
figures in Haiti today in terms of Haitian politics failed to 
exercise the leadership that was so necessary. It could have 
happened, but let's go forward, and I yield back.
    [Pause.]
    I am just informed that the Chairman left, so we will be in 
recess until the Chairman returns unless the gentlelady from 
California has a statement.
    We will be in recess until Chairman Gilman returns. I am 
told it will be 2 minutes, so put on your stopwatch, and we 
will see how accurate that is.
    [Recess.]
    Chairman Gilman. The Committee will resume. I regret the 
delay. We had some floor business to take care of.
    Mr. Hilliard.
    Mr. Hilliard. Thank you very much, Mr. Chairman. Mr. 
Chairman, I am very interested in what our panel has to say 
today, but I would like to echo what Congressman Delahunt has 
said about the historical perspective.
    I was elected in 1992 to the U.S. Congress, and at that 
time Aristide had been disposed. I was one of those that took 
part in the negotiations in trying to get Aristide back to 
Haiti, and I remember some of the promises that were made by 
this country.
    One of them that stands out in my mind was one that really 
sealed the deal of Aristide returning to Haiti with the 
commitment that he would not seek reelection the next term, and 
that the United States, I forgot the exact amount of moneys in 
terms of millions, would pay that amount of money to rebuild 
roads and to hire persons who at that time were unemployed and 
were a big factor in the problems that Haiti was experiencing.
    That money never came, so the economy was never revived. 
Those workers were never employed, so during the final months 
of Aristide's Administration the economy never received the 
injection that it should have and that we had hoped for to get 
Haiti back on the road. Of course, he did not seek reelection.
    Since that time, there has been a great deal of problems 
with trying to get funds to Haiti, commitments that have been 
made by the United States, because of a couple Senators not 
allowing funds or legislation to go forward dealing with Haiti.
    Haiti has had many problems since then. Some of the 
problems are of its own making, but I think that we failed 
Haiti and we failed the Haitian people and we failed to seize 
upon an opportunity to export democracy to Haiti. No matter 
what is said by the panel this morning, there is very little 
that the United States can do to reconcile its failings of the 
past in relationship to not keeping its commitment to Haiti.
    Mr. Chairman, thank you very much, and I am interested in 
hearing what the panelists have to say.
    Chairman Gilman. Thank you very much, Mr. Hilliard.
    Do any other Members seek--Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    I wanted to associate myself with Congressman Hilliard's 
remarks, and I also just want to add to that with regard to the 
judicial reform. It has disappointed Congress and disappointed 
many Haitians, but even with all of the difficulties with the 
elections, United States withdrawal from the reform process and 
also the United States withdrawal from Haiti, I do not think we 
are really helping move forward.
    Thank you, Mr. Chairman, for this hearing. I look forward 
to listening to the panelists to determine really what is going 
on in terms of the judicial reform process and what, if 
anything, we can do to make it better.
    Chairman Gilman. I thank the gentlelady.
    I just want to note that we received a press statement this 
morning that the Organization of American States announced 
yesterday that it is going to facilitate a dialogue in Haiti 
among the country's political forces and civil society. I think 
that is encouraging.
    However, the full and transparent resolution of the actions 
that have de-legitimized the May 21 elections is only part of 
what should be on the agenda. A new credible and competent 
electoral authority is truly needed. Among other steps, real 
action to reverse corruption and politization of the Haitian 
National Police should be at the top of the agenda.
    Let us now proceed with our hearing. On April 8, a group of 
violent protesters, some of whom were reportedly returning from 
the government organized funeral of slain journalist Jean 
Pierre Dominique, ransacked and burned the headquarters of the 
Confederation for Democratic Unity, KID, an opposition 
political party that is led by former Port-au-Prince Mayor 
Evans Paul.
    Opposition leaders, expecting trouble on the day of Mr. 
Dominique's funeral, had implored the police chief to provide 
protection. When American Embassy officials learned of this 
attack, they immediately telephoned the Director General of the 
Haitian National Police and asked him to intervene and protect 
the opposition. Nevertheless, administration officials 
confirmed that although the Haiti National Police were present, 
they did not move quickly to intervene to stop this attack on 
the opposition headquarters building.
    Before proceeding with our panel of witnesses, we will see 
the videotape of that incident. Members of the Committee will 
be able to see the gates of the opposition headquarters broken 
down by the mob. The video shows the police standing idly by.
    After the opposition headquarters was already in flames, 
the video shows Haitian National Police in riot gear slowly 
approaching, but not passing beyond the gates in front of the 
burning building. Finally, the video shows the police allowing 
persons running away from the building to leave the scene of 
the crime.
    I am going to ask Mr. Whittaker if he would display the 
video.
    [Videotape shown.]
    Chairman Gilman. We will now proceed with our witness. Mr. 
Ford.

 STATEMENT OF JESS T. FORD, ASSOCIATE DIRECTOR, INTERNATIONAL 
RELATIONS AND TRADE ISSUES, NATIONAL SECURITY AND INTERNATIONAL 
        AFFAIRS DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Ford. Thank you, Mr. Chairman and Members of the 
Committee. I am pleased to be here today to discuss the 
preliminary results of our review of the United States 
assistance provided to the Haitian justice system. I am 
accompanied today by two of my colleagues, Ms. Virginia Hughes 
and Mr. Juan Tapia-Videla, who led our team in this particular 
evaluation.
    In September 1994, the United States and other countries 
intervened militarily into Haiti to restore the democratically 
elected government that had been overthrown by the Haitian 
military in September 1991. Before this intervention, the 
Haitian military controlled the police and the judicial sector. 
Military and political cronies dominated these institutions, 
and the military influenced the appointments of magistrates and 
the decisions made by them. These justice institutions were 
widely regarded as ineffective and corrupt.
    After the intervention of the United States stepping in to 
provide assistance to the Haitian justice system, both the 
police and the judicial sector aimed at developing a 
professional civilian police force, enhancing the effectiveness 
of the existing judicial organizations and improving the 
Haitian people's access to justice.
    This assistance also aimed at supporting a broad reform of 
the judicial sector that the Haitian Government intended to 
pursue over time. The objectives of this assistance program 
were consistent with United States justice assistance 
objectives in other Latin America countries.
    As you know, United States assistance to the judicial 
sector was suspended in July 2000 because the United States was 
not able to negotiate an agreement with the Haitian Government 
for continuing this type of effort. As of September 2000, most 
of the United States assistance to the Haitian police has 
stopped due to congressional concerns about the events 
surrounding the May 2000 Haitian parliamentary and local 
elections.
    The U.S. Department of State is currently reassessing 
several aspects of the United States relationship with Haiti 
based on concerns about how votes were counted in the Haitian 
May 2000 parliamentary elections.
    My statement today is based on work we are currently 
conducting for this Committee and for the Senate Foreign 
Relations Committee. First, I will discuss the results of the 
United States assistance that has been provided to the Haitian 
police and the judicial sector and some of the major problems 
that continue to affect these justice institutions. Second, I 
will discuss the primary factors that have affected the success 
of this assistance.
    Our work is based on meetings with officials with the U.S. 
Departments of State and Justice, the U.S. Agency for 
International Development, U.S. Coast Guard and other U.S. 
agencies. To examine the results of this assistance, in June 
2000 we sent a team into Haiti to observe firsthand the 
conditions on the ground and to meet with government officials, 
donor officials and others about the situation in Haiti. We 
also performed an extensive review of program documentation 
over the last 5 years of this effort. We expect to issue our 
report sometime in October 2000.
    Over the past 6 fiscal years, the United States has 
provided about $97 million in assistance to help Haiti 
establish its first civilian controlled police force and 
improve aspects of the judicial sector. About $70 million of 
the assistance helped Haiti recruit, train, organize and equip 
a basic police force, including specialized units such as an 
anti-narcotics unit, a special investigation unit and the 
Haitian Coast Guard.
    During the same period, the United States provided 
approximately $27 million in assistance that led to 
improvements in the training of magistrates and prosecutors, 
the management practices of judicial institutions and access to 
the Haitian people to the justice systems. However, despite 
these achievements, the police force has not effectively 
carried out its basic law enforcement responsibilities, and 
recent events suggest that politization has compromised the 
force according to U.S. and other donor officials.
    The judicial sector has also had serious weaknesses, 
according to these officials. The sector has not undergone 
major reform and as a result lacks independence from the 
executive branch and has outdated legal codes and cumbersome 
judicial procedures.
    Furthermore, the judicial institutions have personnel 
shortages, inadequate infrastructure and equipment, vehicles, 
legal texts and other types of supplies. They have an 
ineffective internal oversight organization that is unable to 
stem corruption. Overall, these institutions provide justice 
services to only a small segment of the population because the 
institutions rely heavily in judicial proceedings on the use of 
French, rather than Creole, which is the majority language of 
the population.
    A key factor affecting the lack of success of United States 
assistance has been the Haitian Government's lack of commitment 
to addressing the major problems of its police and judicial 
institutions. United States assistance to the police has been 
impeded because the Haitian Government has not acted to 
strengthen the police organization by filling the current 
vacancy of the Inspector General, by providing human and 
physical resources needed to develop an effective police force, 
by supporting vigorously police investigations of serious 
crimes and to keep the police force out of politics.
    United States assistance to the judicial sector has been 
largely undercut because the Haitian Government has not 
followed through with many of the broad reforms that are 
needed, has not assumed responsibility for adopting many of 
these improvements, and has not provided the physical and human 
resources needed to operate effectively.
    This concludes my opening statement. I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Ford appears in the 
appendix.]
    Mr. Ballenger [presiding]. Excuse me. Do you have any 
additional statements?
    Mr. Ford. That was a summary of my statement.
    Mr. Ballenger. I wonder if a copy was available.
    Mr. Delahunt.
    Mr. Delahunt. Well, Mr. Chairman, out of respect for 
yourself I will defer to the Chair to go first.
    Mr. Ballenger. Well, having come in late to the discussion, 
the one question that comes to my mind is are we still 
committing money to the operation, this assistance in Haiti? Do 
we still give them financial assistance on these matters?
    Mr. Ford. My understanding is we are still providing some 
form of assistance primarily to the Haitian Coast Guard. The 
DEA still has a presence there and is working with the 
Haitians, but most of the police assistance and the judicial 
assistance has been stopped.
    Mr. Ballenger. Did you say DEA?
    Mr. Ford. Yes. The DEA works on counter narcotics 
activities, and they do work with the Haitian counterparts and 
also with the Haitian Coast Guard.
    Mr. Ballenger. From what we hear, though, it is not 
terribly effective; at least the amount of drugs that seem to 
be coming through Haiti are rather substantial amounts, but to 
your understanding----
    Mr. Ford. Yes. According to the State Department's most 
recent report on drug trafficking activities in Haiti, they 
indicated there has been I believe for 1999 the report had a 24 
percent increase in drug trafficking activities in Haiti.
    Our conversations at the Embassy clearly indicated that 
narcotics trafficking is a major problem in Haiti today, and 
there is a concern on both the government's part and our 
Embassy about where we may be headed in terms of narcotics 
problems in Haiti.
    Mr. Ballenger. Could you tell me what steps other donors 
such as Canada, who we sometimes disagree with, are taking with 
regard to the assistance of the Haitian National Police and the 
Haiti judiciary?
    Mr. Ford. Yes. Canada has also been a major donor to the 
Haitian police over the last 5 years. They have worked in 
concert with our agency in terms of developing programs there.
    Our understanding is that they also have some concerns 
regarding the commitment of the Haitian Government to enhancing 
their police. We understand that they have an agreement with 
the Haitians to continue the police academy, which we had been 
helping to fund for the last 5 years. We understand that the 
Canadians have reached an agreement with the Haitians to 
maintain the police academy, so that is a positive sign.
    With regard to the other donors, I believe the French have 
a small effort in the judicial sector, and UNDP has also 
supported some judicial reform activity in Haiti.
    Mr. Ballenger. Does the GAO have any recommendations 
stemming from this review that you can share with us?
    Mr. Ford. We are currently in the process of finalizing our 
report. We currently believe that, if the U.S. Government 
determines that it wants to reinvigorate our program in Haiti 
with regard to either the police and/or the judiciary, there 
ought to be more strict conditionality applied in terms of the 
agreement.
    We have seen in work we have done in other countries in 
Latin America over the years on rule of law activities that 
unless you have the political will of the government, it is 
very difficult to have any kind of real meaningful major reform 
with either the police and/or the judiciary.
    Certainly our programs in El Salvador have been generally 
successful because the government there has made a conscious 
effort to support the police and to make some judicial reforms.
    We are currently thinking in terms of perhaps suggesting 
that, if we are going to continue there, we need to have more 
strict conditions apply to our assistance so that we have an 
active partnership with the Haitian Government.
    Mr. Ballenger. Mr. Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman.
    You know, you refer to this lack of political will, the 
lack of commitment. I think it is important at least for me to 
understand the intent of or the import rather of that 
particular phrase.
    Do you mean that it is a resistance to change or simply 
inaction in terms of the necessary changes in the law of a 
commitment of resources, because I think that is very important 
to understand.
    Mr. Ford. Yes. Let me see if I can help you out with that. 
First of all, as you acknowledged in your opening statement, 
Haiti is the poorest country in the western hemisphere. They do 
have limited financial resources that they can invoke to many 
things on the island, including support for police and judicial 
reform, so we recognize that, and we believe that context needs 
to be--will be included in our report.
    We also think that the Haitians in some respects have 
backtracked on some initiatives that we think are important and 
that we think are a sign that maybe they have not been fully 
committed to the effort.
    Mr. Delahunt. Such as?
    Mr. Ford. A fine example would be the Inspector General's 
office. The Inspector General that had been there up until May 
before he left the country had been involved in investigations 
which resulted in 1,100 police officers being released from the 
force.
    There has been no replacement made for the Inspector 
General, according to the Embassy officials we talked to on our 
trip down there. There are no active investigations underway 
currently on the island, so that is a sign to us that perhaps 
some of the political commitment that we would like to see on 
the part of the government just is not there at this point in 
time.
    Mr. Delahunt. I would just point out again that Haiti is a 
nation that needs everything simultaneously. I think it is very 
important for the American people to understand that, and from 
May until September hopefully that appointment would have been 
made, but I would suggest that it is not egregious.
    I was disappointed in the fact that Mr. Josef made a 
decision to leave as I had confidence in his integrity, and I 
think, as you indicate, his record speaks for itself. At the 
same time, I think we have a certain responsibility to 
acknowledge, too, that it was the U.S. Congress that put a hold 
on so-called MICIUIH funding, which would have allowed 
monitoring of exactly the kind of abuses and allegations that 
Mr. Josef and the Inspector General's office was responsible 
for.
    Would you agree with that statement? Are you aware of the 
hold on the MICIUIH funding?
    Mr. Ford. I guess we are not familiar with that specific 
hold, but let me comment on a couple of other things. That was 
one example. I think there are other examples where the Haitian 
Government just has not stepped to the plate in certain areas.
    In the area of judicial reform, there has been no movement 
to changing their legal codes, and they are still operating 
with----
    Mr. Delahunt. Let me interrupt you again, Mr. Ford.
    Mr. Ford. Sure.
    Mr. Delahunt. Again, I do not want to appear to be an 
apologist for the Haitian Government because that is not my 
perspective, but at the same time you said you are unaware of 
the hold on the MICIUIH. Well, I would suggest that it is very 
important that GAO put that into its report and to understand 
that context.
    At the same time, the lack of a parliament certainly 
creates, I would suggest, an overwhelming impediment to the 
passage of legislation that we are discussing about that you 
are indicating is necessary to effect the kind of judicial 
reform that I think we would all embrace.
    Again, the linchpin of that was the elections that occurred 
in May and subsequently in July, and obviously there is a 
Presidential election, so again I think it is important to put 
it in that particular context, but again I have read your 
preliminary report, and you refer constantly in there, and I 
think accurately so, to lack of resources.
    I also think it is important to understand that we often 
hear in Congress the amount of billions--I think it is $2.5 
billion--that the United States has expended in terms of Haiti. 
I think it is important to stress that that $2 billion most of 
it, was allocated to the invasion, if you will, of some 20,000 
American troops back in 1994 to restore democracy and also the 
processing of refugees in Guantanemo so that they could return 
to their homeland without fear of being assassinated and 
murdered and oppressed by the government.
    Mr. Ballenger. Mr. Delahunt, I do not know how strict they 
run the rules here, but the red light is on.
    Mr. Delahunt. They are very loose.
    Mr. Ballenger. OK. You can have a little more time then.
    Mr. Delahunt. I figured because you are such a dear friend, 
I figured I could take advantage of you.
    In terms of again let me get back to the political level. 
In your conversations with DEA, in your conversations with the 
U.S. Coast Guard, what have they prescribed to you in terms of 
their relationships with law enforcement officials relevant to 
drug investigations?
    Do they describe it as a failure to cooperate or simply the 
fact that the Haitian National Police and the Haitian Coast 
Guard are totally undermanned, totally lack the necessary 
resources and give and confer upon the DEA and the Coast Guard 
wide latitude in our own efforts to interdict drugs and to deal 
with the issue of Haiti and drug trafficking?
    Mr. Ford. Well, I can tell you that based on our 
conversations with DEA and the law enforcement establishment at 
the Embassy that that is one of the positive areas in Haiti; 
that in fact they do have a very good relationship with the 
Haitian Coast Guard. The problem is they do not have the assets 
and the resources.
    Mr. Delahunt. Right. Well, this is the point I am trying to 
make, Mr. Ford. In your conversations with the DEA, what do 
they describe as the albeit somewhat primitive and close to 
futile efforts of the Haitian National Police, the so-called 
anti-narcotics squad? It is understaffed. It is undermanned, 
but it is trying. Is that a fair statement?
    I do not want to put words in your mouth, but I know that I 
have spoken in Port-au-Prince to our DEA, and that is the 
information they give to me.
    Mr. Ford. No. I do not disagree with that. They told us 
that, you know, they generally have good cooperation with those 
units, but they are undermanned. They do not have equipment. 
They cannot get out to where the problem is and so their 
effectiveness is limited.
    Mr. Delahunt. They do not even in some cases, you know, 
have uniforms.
    Mr. Ford. Right.
    Mr. Delahunt. I mean, that is the reality of Haiti. Is 
there much to criticize? Yes, but does it translate into what 
you described as political will by just simply a total lack of 
resources and ineptitude and, unfortunately, elections that did 
not resolve, at least to the satisfaction of the international 
community, many of the issues surrounding democratic 
institutions in Haiti?
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Ballenger. Yes, sir.
    Mr. Cooksey.
    Mr. Cooksey. You are welcome. I will not say you were 
encroaching on my time since you are a good friend.
    Mr. Ford, I assume since you are from GAO you are an 
accountant?
    Mr. Ford. Not by background. I am not an accountant, no.
    Mr. Cooksey. What are you by background and education?
    Mr. Ford. My expertise is in the area of international 
affairs.
    Mr. Cooksey. So you went to college and got a degree in 
international issues?
    Mr. Ford. That is right.
    Mr. Cooksey. OK. I was going to ask you some accounting 
questions, but I will not. I will ask you some international 
issues questions. I will ask you some international issues 
questions.
    The issue here is rule of law, if I am not mistaken, and I 
am not a lawyer. In my review of geography, my memory of 
geography, the island there is called Hispaniola. Is that not 
correct?
    Mr. Ford. That is correct.
    Mr. Cooksey. And part of that island is Haiti, and the 
other part of the island is the Dominican Republic? Is that 
correct?
    Mr. Ford. That is correct.
    Mr. Cooksey. Where do you have the best rule of law, the 
most effective rules of law, in Haiti or the Dominican 
Republic? I know it is not very good in either place, but which 
is better? Which is better of the two?
    Mr. Ford. You know, we did not do an assessment on that 
particular assignment. However, I will----
    Mr. Cooksey. I can tell you are a politician.
    Mr. Ford [continuing]. Tell you that based on work we have 
done in the past I would say the Dominican Republic has 
generally a better system.
    Mr. Cooksey. It is my understanding that they at least 
deliver services to the people, electricity, water and so 
forth. Haiti has electricity a couple hours a day. What is the 
explanation for that? Do you have any, since you have a 
background in international relations?
    Mr. Ford. Well, OK. I am not an expert on either of these, 
but let me tell you what I know a little bit about. Haiti has 
not had a democratic form of government for 200 years prior to 
I guess you could say 1991, and then we had to invade there to 
put President Aristide back in power, so they do not have a 
tradition of democracy there. The Dominican Republic does not 
have much of a tradition of democracy either.
    Different cultures. You know, Haiti, the vast majority of 
the population speak Creole. You know, the upper class speaks 
French, and they do not have a Hispanic society as in the 
Dominican Republic, so you have the different culture, 
different mind set there.
    Both of these countries are developing countries. Both of 
them have major problems economically. They have major problems 
with poverty. We have aid programs, have developed aid programs 
in both countries, or we had up until recently in Haiti at 
least on the justice side. You know, they both have some 
similar characteristics.
    Mr. Cooksey. Have you put an equal amount of money in both 
places? Not you and me, but the taxpayers.
    Mr. Ford. I do not have the dollar amount for Dominican 
Republic.
    Mr. Cooksey. Let me go back and review a little bit more 
geography. The Virgin Islands. If my memory is correct, there 
is an American Virgin Islands and a British Virgin Islands. 
Where do you have the best rule of law there, the British 
Virgin Islands or American Virgin Islands?
    Mr. Ford. I really cannot answer that. I mean, I know that 
the United States----
    Mr. Cooksey. Would my friend, Mr. Delahunt, who is an 
attorney, like to answer that? Who has the best rule of law? 
What I am driving at is where is there rule of law and where 
does it work and why does it work?
    In the BVI, for example, there was a hurricane that went 
through there a few years ago. In the American Virgin Islands 
there was total chaos. There were people that were down there 
that were on vacation, and they were worried about their 
survival because there was total chaos in the streets. Where is 
there the better rule of law and why?
    He is afraid to answer. He is walking away.
    Mr. Ford. I am not in a position to answer that. I can tell 
you that the U.S. Virgin Islands is a U.S. territory and is 
subject to U.S. laws with some exceptions, so they are under 
our system.
    I am not familiar with the British Virgin Islands in terms 
of what type of system they have.
    Mr. Cooksey. I have been to both places and, you know, 
things were fine when I was in both places.
    Well, my concern is about the man and woman on the street. 
As a physician, and I am not an accountant either, I was 
trained to take care, and just as I grew up in my household my 
parents believed we should take care of the weakest members of 
our society. But in some of these societies the weakest members 
are the ones that suffer the most, and the strongest are the 
politicians, and they end up using and abusing the system. They 
use and abuse the people.
    That is true in this country. It is true in the American 
Virgin Islands and, unfortunately, I am afraid it is true in 
Haiti, so what do we do and how do we find a better solution?
    I was in Sierra Leone in July. You do not really have time 
for me to tell you what I found there. It is the same 
situation. Incidentally, I met with some of the children there 
that have committed murders. I mean, one guy, a 15-year-old, 
admitted killing 85 people. He was a former member of the RUF, 
and he switched over. These are kids that are--of course, I am 
6,3", and they are about 5,3", but they speak Creole, too, so I 
am looking for the common thread.
    What is the common thread where there is security, where 
there is rule of law, and what is the common thread where there 
is no security and where there is no rule of law, and how do we 
use American taxpayers' dollars to help the weakest members of 
society because I do not really care or give a you know what 
about the political leaders, and apparently there is some bad 
political leaders in all these places.
    Do you want to comment on that, or do you disagree? Do you 
have a diplomatic international relations response?
    Mr. Ford. I certainly would agree with you, sir.
    Mr. Cooksey. It is more fun when you disagree with me.
    Mr. Ford. I think that creating a westernized style of 
justice in developing countries is an extremely difficult task. 
It takes years of effort.
    As I have pointed out earlier in my statement, we have done 
some work in some other countries where we have been more 
successful. In our view, we were more successful because there 
would seem to be more commitment on the part of the government 
to support the effort.
    That seems to be a common thread in what we have seen and 
what we have done in the past, but it takes years of effort, 
and there has to be a commitment to provide that form of 
justice, particularly for the mass of the population. They have 
to feel like their government will treat them with some form of 
protection and respect and welfare. If they do not have that, 
then you do not have rule of law.
    Mr. Cooksey. My closing comment, Mr. Chairman, is that in 
all these places I go and visit I find that the man and woman 
on the street generally are kind, gentle, sensitive people that 
want to put a roof over their children's head, their family's 
head, educate their children, feed and provide for their 
children.
    The problem is bullies, and there are bullies in every one 
of these areas that I have talked about. If there is one thing 
that I hate it is bullies. I do not care whether they are in 
Burma or Haiti or the American Virgin Islands or Sierra Leone 
or the Congo.
    If we are going to start doing something, if we are truly 
interested in human rights and truly interested in helping the 
weakest members of society, why do we not have the courage as a 
country to go in and just take out the bullies with whatever we 
have to do, but take out the bullies because they are the ones 
that are creating the problems. They are the ones that are 
killing people, maiming people, using and abusing them.
    Mr. Ballenger. Ms. Lee. Sorry to keep you waiting.
    Ms. Lee. Thank you, Mr. Chairman.
    I would like to go back to the video that we saw earlier 
and just ask a question with regard to what is your assessment 
or our government's assessment of why the riot control police 
did not step in? What is our analysis of that? Was it they did 
not want to? They did not want to use excessive force? They 
just wanted to see the destruction occur? Is there an official 
kind of position on that?
    Mr. Ford. I really do not know the answer to that. I can 
tell you that one of the things we were told when we were down 
in Haiti was that command and control of the police from the--
it is a highly centralized command and control structure and 
that the police in the field generally are reacting to 
problems. They do not normally do anything unless they are 
directed by some higher authority to take action.
    Now, I do not know in this particular case what the 
situation is. We were not privy to what exactly transpired in 
terms of who decided what they would do. Our understanding is 
that that was basically the riot control police, and we do not 
know what direction they had at that time.
    Ms. Lee. So this was actually the first time you had seen 
the video?
    Mr. Ford. No. I had seen that video before.
    Ms. Lee. Had you?
    Mr. Ford. Yes.
    Ms. Lee. Let me just ask you just a general question with 
regard to the Haitian people. Are they becoming more central? 
More desperate? What has been their response to the current 
state of affairs, and then what do you see as the ramifications 
of the total withdrawal of United States support from Haiti?
    Mr. Ford. Again, I can give you some anecdotal responses. I 
can say that our team that went to Haiti met with a number of 
Haitian officials who are magistrates, judges working at medium 
to lower levels of the bureaucracy over there and that many of 
them had a deep concern about what was happening in Haiti and 
that many of them wanted to do their job, but they felt for a 
variety of reasons, in some cases threats to their lives, in 
some cases lack of resources. They just were not able to really 
do what they thought they could do to help the country.
    Now, that is anecdotal. Whether that represents everybody 
in Haiti I cannot really comment on. There have been some polls 
taken that we have seen in our research that showed that the 
Haitian population in general does not have a high regard say 
for the police force in general, but there is a clear sense at 
least from the people we talked to who were actually on the 
ground working there that they want to do it.
    They want to do what they were trained to do, but they 
either do not have the resources, or they operate under 
constraints that do not always exist in this country.
    Ms. Lee. So complete U.S. withdrawal of support means fewer 
resources?
    Mr. Ford. Well, currently as I mentioned earlier, we do not 
have an active program with the exception of some support we 
are providing to the Coast Guard, so we do not have an active 
program there.
    What is going to happen with the efforts that we paid for 
earlier in terms of whether they will be sustained, there are 
some signs that they are lost, particularly on the judicial 
side. There are some positive things we saw; the magistrate 
school. Apparently the Haitian Government is still supporting 
that, although at a lower level. The police academy. The 
Canadians are supporting some of that program, but everything 
else that we paid for, who knows whether it will be sustained.
    At this point it is not clear whether or not those 
institutions and those things we paid for in the past will 
still be there say a year from now.
    Ms. Lee. So do we then have any concern for the sustainment 
of these institutions and for some of these reforms to be----
    Mr. Ford. Absolutely.
    Ms. Lee [continuing]. Institutionalized, and then how do we 
ensure that if we are withdrawing it or if we have withdrawn 
it?
    Mr. Ford. Well, I think again from where we sit, our view 
is that when we decide--if we decide to continue or develop a 
new program, we need to have more of a partnership with the 
Haitian Government to make sure that whatever we end up paying 
for, that investment is not lost. I think that that is the 
critical point.
    We are not in a position to say whether or not we ought to 
have a new program there or not, but certainly if we do have 
one we think that we ought to have a partnership that makes 
sure that the investment pays off and is not lost.
    Ms. Lee. Well, in many areas of the world we do have those 
kind of partnerships, and I do not know why we did not insist 
on that with Haiti. Is there a reason, or is there just----
    Mr. Ford. I cannot speak for the Administration. I mean, 
you will have to ask them that. There is certainly a concern--
there is no doubt about that--that we need to do something in 
Haiti.
    Mr. Ballenger. Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman. Thank you, ladies 
and gentlemen, for being here, Mr. Ford, Ms. Hughes and Mr. 
Tapia-Videla.
    Mr. Ford, all the questions have gone to you. Maybe you 
want to try to answer this, or maybe you would like to pass it 
on. You know there are certain issues here. One that is 
probably the most important is the attitude of the Haitian 
Government. The second, obviously, is the effect of the police, 
and the third is in terms of the judicial system itself.
    I see on the next to the last page here in this Appendix 
No. 1 on page 12, the aid to administration of the justice 
program went from 1993 to 2000, and out of a total of $93 
million that $11 million or actually let's say roughly $14 
million was given to the former administration, the one called 
Chechi. What did Chechi actually do?
    It seems to me in reading over the information that a lot 
of this was directed toward the judicial system, and only $11 
million out of this $93 million, or actually you can take a 
look at the figures on page 65, was devoted to them. What did 
they do?
    Mr. Ford. In the case of the Chechi program, which operated 
I believe from 1996 to 1999, you can almost tell what they did 
by reading the captions, but they implemented----
    Mr. Houghton. No. I see that.
    Mr. Ford [continuing]. A case registration system.
    Mr. Houghton. And anybody can read that.
    Mr. Ford. Right.
    Mr. Houghton. Case registering and----
    Mr. Ford. Right.
    Mr. Houghton [continuing]. Case monitoring. I mean, what 
did they do?
    Mr. Ford. OK. What they basically did was they tried to get 
the judicial system in Haiti, and there are four tiers of it to 
help them to develop the basic tools for a justice system where 
you could track, for example, its prisoners to make sure that 
you know where they are. They monitor what they are doing.
    Mr. Houghton. Did they put that in place?
    Mr. Ford. Yes, they did.
    Mr. Houghton. So all those things they did in terms of 
education, case registering, entering other technical equipment 
systems, have been done?
    Mr. Ford. Yes.
    Mr. Houghton. I see. Did they have a sign off report at the 
end? Did they say, you know, you asked us to do this; it has 
cost us $11.5 million, here is what we think ought to be done?
    Mr. Ford. After this program was over, and this program was 
funded by the Department of Justice, they wanted to continue 
the effort.
    Our understanding is that last summer negotiations were 
underway between our government and the Haitian Government to 
extend this effort so that the effort would be sustained. What 
we were told was that they could not reach agreement on how to 
move forward, and as a result of that----
    Mr. Houghton. Is it because of conditions down there or 
negotiations with our funding agencies?
    Mr. Ford. I believe it was negotiations with our people and 
the Haitian Government and the Minister of Justice.
    Mr. Houghton. So that the people down in Haiti did not want 
them to come in and do the things they were suggesting to do?
    Mr. Ford. We understand that there were differences in 
views about what the direction of the program should be.
    Mr. Houghton. Well, you know, this gets to the core 
question--you are damned if you do, you are damned if you do 
not. You are damned if you pull out. You are damned if you 
stay.
    Of course, the overall umbrella issue is really the 
attitude of the Haitian Government. Even if you essentially 
came back and specific things, in terms of case registering and 
court management, were approved, why would you want to spend 
more money on this? Granted, it is needed, but if the attitude 
of the government is such that it is the back of your hand.
    Mr. Ford. Well, I think that is a fair question. That is 
our point. Our point is you need to have an active partner that 
is going to sustain the effort, and I think that is what we 
need to see with regard to any type of program.
    Mr. Houghton. So all these things, whether it is police 
management, whether it is training, whether it is the 
corruption, whether it is the specifics in terms of the legal 
program, it all depends upon the governmental support.
    Now, did you make any suggestions in your overview of what 
we ought to do in terms of that overall broader issue?
    Mr. Ford. Our primary suggestion really is going to be 
geared toward establishing a more specific quid pro quo for the 
type of aid that we provide. That is basically where we are 
going.
    Mr. Houghton. So if that condition exists and this is not 
something you want to get into, if you had your druthers, if 
you had the money, would you still go ahead and do some of 
these things?
    Mr. Ford. I think these things are--I think that there is 
no doubt in our minds and on the part of the people at the 
Embassy that all of these are useful things that ought to be 
done in Haiti. I do not think there is any disagreement about 
whether these things were beneficial to society there. They 
would be, but they need to be maintained and sustained.
    Mr. Houghton. So you would go ahead and make sure the 
procedures from the judicial standpoint were there, that the 
language has now been translated to Creole and all those 
things? You think that it is still building the base so when 
the attitude of the government changes you will have something 
to work on? Is that right?
    Mr. Ford. I think you have to have--when you say the 
attitude of the government, I think you need to have a 
commitment on the part of the government's part to support it. 
If you have that commitment, we can make progress.
    Mr. Houghton. How do you explain that to the American 
people? I mean, these are huge dollars. You know, that is a lot 
of money. How do you explain that?
    Mr. Ford. Well, again, we began these programs. In the 
first 2 or 3 years the government of Haiti supported the 
effort, and then for reasons that are not known to me anyway 
that level of commitment seems to have dissipated to some 
extent, so I think, we have to have an agreement with the 
government that they are going to support the efforts.
    They did in the beginning, and there was a lot of success. 
We trained 6,500 police officers. There were a lot of things 
that we did that were useful, but they need to be sustained. 
The government has to support them.
    Mr. Houghton. Can I just ask one final question, and then I 
will stop here?
    Mr. Cooksey [presiding]. Sure. You can have----
    Mr. Houghton. No, no, no. I just want to ask----
    Mr. Cooksey. OK.
    Mr. Houghton [continuing]. One more question.
    Mr. Cooksey. We always defer to those of you from the 
northeast.
    Mr. Houghton. If you were to ask the Canadians, for 
example, what are we going to do, what are we going to do 
together, would their answer be your answer, or would there be 
a difference?
    Mr. Ford. We talked to the Canadians, and my personal view 
is I think they would agree with what we have had to say here. 
They want their investment, their assistance, to be effective 
just like we do, and I believe that they also feel that there 
has to be some commitment on the part of the government for 
their programs to work.
    They were in a partnership with us in terms of helping to 
develop the police, so we had similar ambitions in terms of 
what we wanted to achieve.
    Mr. Houghton. Thank you very much.
    Mr. Cooksey. Thank you.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much. I am sorry that I was 
not here to listen to your testimony. I was looking through the 
written testimony.
    As you know, because I am from South Florida what happens 
in Haiti has an immediate and profound effect on all of us in 
our communities, so the reforms and the democracy and the 
infrastructure and all the positive changes that we all want to 
make in Haiti have a really almost domestic concerns for us in 
South Florida.
    How optimistic are you, based on your GAO assessment of the 
assistance that has already gone into Haiti for judicial and 
police reform, that things can get turned around; that the 
funds will be used in a better way; and that with all of the 
changes taking place in Haiti now that they have turned the 
corner and are on the right route, because what we hear are 
nothing but negative news about the latest developments?
    How optimistic or pessimistic are you that our U.S. dollars 
that we have funneled over there will have laid the proper 
groundwork for a true democracy and true reforms to take place 
on that troubled island?
    Mr. Ford. Well, all I can do is mirror what we were told by 
our U.S. officials down there. There is a deep concern about 
the direction of Haiti in terms of the government.
    I think you have a Presidential election coming up. Until 
the political situation in Haiti is sorted out, it is difficult 
to determine where we go from here. I think that is the view of 
the Administration at this point.
    I think there is a deep concern on everyone's part. I think 
that at least the people we have talked to want Haiti to 
succeed. They want there to be progress there, but right now 
everything is kind of up in the air, frankly.
    Ms. Ros-Lehtinen. Anyone else want to speak to that?
    Thank you.
    Mr. Cooksey. Ms. Ros-Lehtinen?
    Ms. Ros-Lehtinen. Mr. Cooksey.
    Mr. Cooksey. Can I ask you a question? If my memory is 
correct, have we not had some testimony that there is a 
listening station in Cuba that can listen to all the 
conversations in the southeast United States and maybe a lot of 
the United States, say our telephone calls, our military 
transmissions? Is that correct?
    Ms. Ros-Lehtinen. Yes. It is targeted to the United States, 
and it deals with mostly economic and military espionage. It is 
in Louvdes, Cuba, and there is a minor one more close by as 
well. It is a Russian intelligence facility, one of the most 
sophisticated listening stations in the world.
    Mr. Cooksey. OK. My question to you then is if there is an 
entity like that that listens to our radio transmissions and 
telephone transmissions and your telephone transmissions, 
should there not be a comparable source of information, and we 
may not get it from the Cubans, but I bet there is someone in 
our government that could be listed as indeed listening to the 
phone conversations and the transmission of the people in 
Haiti. Would you think that is a safe assumption, Mr. Ford?
    Mr. Ford. I really cannot comment on that, sir. I do not 
have the expertise on that question.
    Mr. Cooksey. Well, let's just assume there is. OK. Next 
question. If there is a way to listen to what is going on in 
the Aristide government, the Lavalas Family party, and we learn 
that some of the people in that government, in that party that 
only has one candidate for president this November, is involved 
with the drug trade should we have some additional concerns in 
the United States about how effectively our money is being 
spent down there, or should we just ignore it? Should we blow 
it off? That is an easy question.
    Mr. Ford. Well, yes. If we have evidence that there is 
something of that nature going on, obviously we need to take 
action against it, but, you know, I do not know anything about 
that.
    Mr. Cooksey. OK. Do you think that we were justified in 
taking Noriega out in Panama when we had evidence that he was 
involved in the drug trade?
    Mr. Ford. Well, GAO does not have a view on that, sir. I 
can tell you that, you know, if we did.
    Mr. Cooksey. You were probably a student in international 
relations when that occurred.
    Mr. Ford. I have my own views on that, sir, but they do not 
represent necessarily GAO's views so it probably would be 
better for me not to answer that.
    Mr. Cooksey. Well, the question I am driving at is if we 
have intelligence that indicates that people in this government 
have a reason, more reason, to hold onto the reins of 
government other than just oppressing their people, other than 
just raping and pillaging that country, other than taking our 
tax dollars and probably not using them very effectively, the 
other reason can be that they are involved in the drug trade.
    Would that be reason for us to take action or for the GAO 
to take action? Do you think the GAO would have a 
recommendation or opinion on that?
    Mr. Ford. Well, I think that specific instance I believe is 
already covered by law, as I recall. I think there is a 
provision in the Foreign Assistance Act that basically requires 
us to cutoff aid.
    Mr. Cooksey. Good. Let's say we can get information from 
the Cubans. We can get it from our intelligence agency. It is 
my understanding there was a report in one of our local 
newspapers that documented that the members of the Aristide 
government are involved in drug trade. Do you think the 
newspaper is a good source of information?
    Mr. Ford. Do I think the newspaper is a good source of 
information? Not necessarily, no.
    Mr. Cooksey. So you think the radio intercepts or some 
other type of intelligence activity to get that? Do you think 
that information is out there?
    Mr. Ford. I really do not know, sir.
    Mr. Cooksey. What if I told you that that information is 
out there and has been provided to the leadership of the 
Democratic party and the leadership of the Republican party, 
and it has been suppressed or ignored, information that indeed 
the leadership of this government is up to their ears in drug 
trade, and that is probably one reason they are trying to hang 
onto power because they are making money?
    This is just a question. I am not making an assertion. I am 
not up here with a newspaper, sir. I am just asking the 
question. It is a hypothetical question,----
    Mr. Ford. OK. Well, let me----
    Mr. Cooksey [continuing]. So you can give me a hypothetical 
answer.
    Mr. Ford. Let me say something here, sir. I have a little 
information on this, but I cannot comment on it in an open 
setting so let me just say that right now. The information I 
have available I cannot talk about in an open setting.
    Mr. Cooksey. OK. Well, I am concerned again about what is 
going on down there. I am concerned about the people, and I 
think that the Americans truly have a desire to help the people 
out in Haiti, but I just do not see any reason that we should 
continue to help out the bad guys.
    The Chairman is here. Do you have any comments or 
questions, Mr. Chairman?
    Chairman Gilman [presiding]. I thank the gentleman for 
taking on the Chair while I was on the floor on some other 
legislation.
    Has the Administration conditioned its aid to the Haitian 
judicial system or the Haitian National Police on any areas? 
Have the Haitians met any such conditionality if there have 
been such conditions?
    Mr. Ford. In terms of the previous programs, the 
information we have indicates that we did not have any real 
formal type of conditionality.
    We did have a--signed an agreement with regard to the 
narcotics unit having to do with personnel levels, but that is 
the only instance we are aware of programmatically of any 
conditions being put on the Haitian Government.
    Chairman Gilman. Your opening statement refers to signs of 
politization in the police during the recent election process. 
Can you specify the incidents that you were referring to?
    Mr. Ford. Again based on information provided to us by the 
Embassy and the State Department, there were some incidents 
where the police either were passive in terms of taking action 
against demonstrators, and there also are reports that after 
the election there were some arrests of opposition leaders on 
the part of the police.
    Chairman Gilman. Do you have any recommendations of what we 
can or should be doing to beef up the police process in Haiti?
    Mr. Ford. Again as I noted earlier, we believe that there 
should be stronger conditionality put on any future assistance 
to try to ensure that the government of Haiti not only supports 
the assistance we provide, but also there will be some 
semblance of sustainability.
    Chairman Gilman. What sort of conditionality would you 
suggest?
    Mr. Ford. Well, again I am not a program person so, you 
know, I am not the best person to answer that. I think it is 
basically an agreement that if we are going to provide training 
for the police and we are going to support the police academy 
that there be a quid pro quo on the part of the Haitian 
Government to support that effort; if we want to have an 
Inspector General that that office be maintained and that they 
have a credible individual in that office. Things of that 
nature I think ought to be included in these types of 
agreements.
    Chairman Gilman. Director Ford, have the Canadians 
curtailed their assistance to the police?
    Mr. Ford. The information we have is that the Canadians 
have reduced their overall assistance to Haiti to the police 
and to the judicial system. However, they are still supporting 
the police academy. They have apparently reached agreement with 
the Haitian Government to continue to fund the training academy 
there, so there is some ongoing activity.
    Chairman Gilman. Thank you.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    By quid pro quo, Mr. Ford, are you suggesting--let me see 
if I understand it because we have been discussing sustaining 
these programs. I concur. I think what we are seeing is an 
attrition, first of all, in the number of police personnel. I 
think the numbers were initially 6,500. Now, according to 
Embassy personnel, it is anywhere between 3,000 and 4,000.
    So I think what you are talking about is a commitment that 
the necessary funding during the course of the budgetary 
process of the Haitian Government reflect a resources 
commitment to increase the numbers back to 7,500, along with 
appropriate training as was initially done several years ago.
    Is that what you are talking about as a quid pro quo?
    Mr. Ford. Yes.
    Mr. Delahunt. A financial commitment----
    Mr. Ford. Yes.
    Mr. Delahunt [continuing]. As well as the training 
component?
    Mr. Ford. Yes. I think there needs to be those two things. 
I also think that we should try to get the Haitian Government 
to also make some major political reforms. We mentioned earlier 
the legal codes. These kinds of things are considered to be 
essential to have.
    Mr. Delahunt. Right. As you said, I think you said just 
several minutes ago once the political issues are resolved, 
once there is a government in place, that is when these 
particular issues have to be addressed.
    You would acknowledge, presumably, that we have had no 
government for almost 2 years now, and clearly there is a 
question as to the legitimacy of the May election. I find 
myself more in agreement than in disagreement with the Chairman 
and others who have raised the issue, but I think it is 
important to understand in the larger context that there is no 
government.
    I think it is important to understand, too, that in the 
aftermath of the coup years everything was starting from 
scratch. You would acknowledge that.
    Mr. Ford. Yes, we do.
    Mr. Delahunt. I mean, absolutely from scratch.
    I think it was Mr. Cooksey that raised the issue on the 
videotape we saw. What conclusions do you reach after observing 
the videotape?
    Mr. Ford. That tape?
    Mr. Delahunt. That tape.
    Mr. Ford. I am not a police officer. To me, you would 
expect normal police to go in and not allow somebody to go in 
and burn a house down, so I find that troubling.
    Mr. Delahunt. Right, but, you know, what I found--let me 
tell you what I noticed is that there were five or six police 
and a crowd of several hundred. I cannot reach a particular 
conclusion. I do not know whether they were waiting for 
reinforcements. I do not know whether they felt threatened or 
intimidated by the crowd. I do not know their level of 
training.
    A statement was made about rioters exiting the grounds and 
not being arrested by the police. I do not have any evidence to 
indicate whether those were the rioters or those were the 
individuals that were in that residence. They may or may not 
have been inquired upon upon exiting. I do not know that. I 
find it difficult to reach any particular conclusion.
    Again, I think that we have to be careful in reaching 
conclusions. The Department of Justice recently was embarrassed 
because of a case involving our national security with Dr. Wen 
Ho Lee when he was charged with 60 particular indictments after 
presumably a professional, thorough investigation and 59 of 
them were dismissed.
    I would suggest you be very, very careful in reaching 
conclusions. Accept the facts and the data. Let's not just draw 
inferences that prove to be false and mislead us into drafting 
or embracing a policy that maybe does a disservice to American 
national interests.
    I thank the gentleman.
    Mr. Cooksey. Mr. Chairman.
    Chairman Gilman. Yes.
    Mr. Cooksey. I would like to ask the people over in the 
video area if it would be possible to replay that video as we 
are having this discussion and project it maybe on the screen--
--
    Chairman Gilman. Before we do that----
    Mr. Cooksey [continuing]. And then continue our discussion.
    Chairman Gilman. Before we do that, if you will take just a 
moment? I have just a few more questions.
    Mr. Ford, with regard to the judicial system, I understand 
there is a contracting agency that is supposed to help improve 
Haiti's judicial system. Is that correct?
    Mr. Ford. I believe there were several different efforts on 
the way. Yes.
    Chairman Gilman. How much did we expend in trying to 
improve the judicial system?
    Mr. Ford. Well, Congressman Gilman, if you have our report 
there and turn to page 12 of the appendix, it has an outline 
there.
    Chairman Gilman. Just tell us how much it is.
    Mr. Ford. It is $26.7 million.
    Chairman Gilman. And what were the accomplishments of that 
expenditure?
    Mr. Ford. At the beginning there were several 
accomplishments. We established the magistrate school, which is 
still there. It is still being funded by the Haitian 
Government. We also provided a significant amount of training 
to prosecutors and other judges. We established case 
registration systems.
    Unfortunately, the information we had when we visited Haiti 
is that many of those efforts have not been sustained, so the 
only thing that appears to be still up and running at this 
point in time is the magistrate school.
    Chairman Gilman. Can you give me an assessment then of the 
judicial system? Is it effective? Are there problems present?
    Mr. Ford. Yes. There are significant problems, which we 
outline in our statement.
    Again, we need to point out that our assistance was meant 
to attack certain problems there. It was not going to resolve 
the overall judicial problems in Haiti. Some major problems 
with legal reform need to be dealt with.
    I think the assistance we provided attempted to put in 
place more trained judges, more trained prosecutors so that 
better investigations could occur and that they could track 
cases and that type of thing. It is the first step of what 
needs to be done. A lot more needs to be done in Haiti.
    Chairman Gilman. So has any of that been adopted? Has there 
been any success at all in our initiatives of trying to improve 
the judicial system?
    Mr. Ford. Well, the people that got trained are still 
there. Some of them are still there. I mean, as I mentioned 
earlier, anecdotally many of them want to do their job better, 
but they face a lot of restraints. A lot of them do not have 
the supplies. They do not have equipment.
    It is a very difficult environment for them to operate 
there, but those people are still there, and they still have 
the school in place. They are still training some magistrates, 
so there are some things that are still happening.
    Chairman Gilman. You earlier mentioned a provision in the 
Foreign Assistance Act that prohibits U.S. assistance to 
persons corrupted by narcotics trafficking. Could you spell out 
what provision that is?
    Mr. Ford. I am told that that is Section 487 and 481 of the 
Foreign Assistance Act.
    Chairman Gilman. Has our government invoked that provision 
at all?
    Mr. Ford. One of those provisions is the drug certification 
provision, which has been waived the last 2 years by the 
President.
    The other provision, on section 487, I am not familiar as 
to whether or not that has ever been applied. We do not think 
it has, but I am not positive on that.
    Chairman Gilman. All right. At this time we will comply 
with the request by Dr. Cooksey, and I will ask our assistants 
to replay the video we played earlier that showed the attack on 
the political----
    [Videotape shown.]
    Mr. Cooksey. Do you feel having an independent and strong 
judiciary--do you feel that having a strong judiciary would do 
more to solve these problems and bring about rule of law than 
anything else?
    Mr. Delahunt. I think that it is absolutely critical. I 
think that the problem that the Haitian Government has to deal 
with is budget priorities and limited resources.
    I mean, when we talk about what happens within the 
judiciary, do not visualize a picture where computers are 
available because the problem is one of are pencils and paper 
available. I mean, this is a society that is best described as 
primitive, lacking in any resources. Is there corruption? Sure, 
there is corruption. Are there overwhelming problems? Yes.
    Like I mentioned in my opening remarks, I am profoundly 
disappointed with what occurred in the aftermath of the May 
election in terms of the tabulation because I believe there was 
an historic opportunity to transform the direction that this 
nation could take into the new millennium.
    I really, genuinely believe that, and the leadership of 
Haiti failed to meet this historic responsibility, an historic 
responsibility.
    Chairman Gilman. Thank you, Mr. Delahunt.
    One last question, Mr. Ford, and then I will turn to Dr. 
Cooksey.
    What were the circumstances surrounding the departure of 
the Inspector General of the Haitian National Police, the 
deciding factor on why the Inspector General left the Haitian 
National Police?
    Mr. Ford. Well, I can only tell you what we were told by 
the people at the Embassy. I think in late 1999 the Secretary 
of State for Public Safety, Mr. Manuel, left his position, and 
we were told that he had been threatened.
    Chairman Gilman. Who threatened him?
    Mr. Ford. That I do not know. He had received threats is 
what we were told. We were also told that a similar situation 
may have led to the IG resigning.
    Chairman Gilman. Dr. Cooksey.
    Mr. Cooksey. Mr. Delahunt, our colleague, who I really like 
and I think is one of the real gentlemen on your side, 
Congressman Conyers, had asked me earlier this year to go down 
to the elections, and I agreed to go. Then I got the message we 
were not going because indeed the elections were going to be on 
the up and up.
    Do you think that we should consider going down for the 
next elections?
    Mr. Delahunt. Well, I did go down with Mr. Conyers, and, as 
I have indicated to colleagues privately, I, along with Mr. 
Conyers, had an opportunity to visit some 19 voting areas.
    What we saw was remarkable, particularly for Haiti. There 
was incredible enthusiasm. The turnout was approximately 60 
percent. The police were there acting appropriately and 
professionally. People were excited. There were foul ups, 
administrative delays. People were not being paid, but by and 
large we felt very positive about the elections themselves.
    That sentiment was echoed by observers from all over the 
world, from Canada, from the Organization of American States. 
The problem occurred in the aftermath of the election.
    Let me just make a footnote at this point. It was clear to 
me that Fanmi Lavalas would have secured a plurality in almost 
all of the Senatorial districts. Unfortunately, in the 
aftermath of the election--we were there for the counting of 
the ballots, by the way, and again it was done I believe in a 
fair and appropriate way. It was in the aftermath of the 
election that the government I think inappropriately and 
illegally tabulated those ballots in a way that secured a 
majority rather than a plurality for Fanmi Lavalas.
    My point about going almost to the point where it could be 
considered a historical watershed in Haitian history was lost, 
but as we look forward we are going to deal with this 
particular government. I would not opine as to whether we 
should attend the election in November, which is for the 
executive, which is the election for president, but I would 
point out, and I think we have to reflect on this.
    I know that you and I and Chairman Gilman support 
approximately $3 billion, in excess of $3 billion of foreign 
assistance every year to Egypt. The Egyptian Parliament is 
controlled by the party of President Mubarak with 97 percent.
    Now, there has been over the course of time considerable 
debate as to whether elections in Egypt are fair and free, and 
people whom I know you and I both respect would indicate that 
no, they are not free and fair, so I think that we have to be 
careful in singling out a particular country and beginning the 
process of disengagement that I think would have negative 
implications for the national interest of the United States.
    Mr. Cooksey. One followup question. This is a rhetorical 
question/comment. Do you think the attendance at this hearing 
of the entire International Relations Committee is a reflection 
of the interest in Haiti? I am afraid to hear an answer.
    Chairman Gilman. Well, let me respond. Today is a very busy 
day with Members on the floor, Members in other areas, so I do 
not think it is a fair indication because there is a great deal 
of interest in Haiti's future. A number of us have joined 
together from time to time to go to Haiti to try to assess what 
is there.
    Mr. Delahunt and yourself are indications of some of the 
people taking the time, but there are a number of Members who 
have expressed a strong desire to see Haiti find a way to pull 
itself up by its bootstraps.
    One last question. Mr. Delahunt raised the question about 
the police not detaining anyone, but is it not a rule pretty 
much among police that you detain potential witnesses, even 
possible defendants leaving the scene of an attack, to get some 
information? Here we see no one being interrogated or 
questioned. They are running away from the scene of the fire.
    Mr. Delahunt, you may want to comment.
    Mr. Delahunt. I do not know if you are directing that 
question to Mr. Ford.
    Chairman Gilman. Well, I am asking both Mr. Ford and 
yourself. What should be the role with regard to police in that 
kind of a situation?
    Mr. Delahunt. Well, I think the first priority, of course, 
would be the personal safety of the police officers involved.
    Chairman Gilman. Again, I did not see anyone attacking any 
of the police.
    Mr. Delahunt. No. I understand, but, of course, we also saw 
that police were far outnumbered by those that were rioting. 
Clearly the situation was chaotic.
    I am sure--I have absolutely no doubt--that the police were 
concerned about their personal safety. I also have no doubt 
that their training is inadequate, and I also have no doubt 
that they probably were very, very scared about what was 
occurring.
    They were aware that some of those rioters--we had heard 
gunshots. Now, we do not know where those gunshots came from, 
but given the numbers that I saw I cannot reach a conclusion. I 
just simply cannot reach any fair conclusion.
    You know, I think reasonable people can draw inferences 
that contradict each other, but I do not think we have hard 
evidence here that we can reach proper conclusions.
    Chairman Gilman. Mr. Ford, do you want to comment on the 
action by the police under these circumstances?
    Mr. Ford. Again, my colleague, who is a former police 
officer, has told me that basic police practice would be to 
stop and interview people in a situation like that.
    Again, we are not privy to the entire circumstances of what 
was shown on that video, so, we do not know overall whether or 
not the police were told not to do anything or whatever.
    Chairman Gilman. Mr. Ford, let me interrupt you a moment. 
Was there a full investigation of the destruction of the police 
headquarters by the police? Does anyone know that?
    Mr. Ford. To our knowledge, there was not.
    Chairman Gilman. Mr. Ford, the president of the Electoral 
Council in Haiti was forced to leave Haiti in fear of his life 
in conditions similar to the Inspector General leaving. He had 
stated that when it was made clear to him what could happen if 
he did not make the improper report on the election, he asked 
for asylum in an Embassy and to protect him as he left the 
country.
    Can you tell us? Have you talked to him, or have you 
reviewed that situation at all?
    Mr. Ford. Mr. Chairman, we did not talk to that individual, 
so we do not have any information about that particular 
incident.
    Chairman Gilman. Did you look into the question of why he 
left Haiti under protection by the Embassy?
    Mr. Ford. In his case, no.
    Chairman Gilman. All right. If there are no other 
questions, I want to thank our panelists for being here today 
and for helping us to shed some light on the situation. We hope 
that as a result of your review we can help make a better life 
for those in Haiti who are struggling to find a way.
    Thank you very much. The Committee stands adjourned.
    [Whereupon, at 12:08 p.m. the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 19, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T9534.001
    
    [GRAPHIC] [TIFF OMITTED] T9534.002
    
    [GRAPHIC] [TIFF OMITTED] T9534.003
    
    [GRAPHIC] [TIFF OMITTED] T9534.004
    
    [GRAPHIC] [TIFF OMITTED] T9534.005
    
    [GRAPHIC] [TIFF OMITTED] T9534.006
    
    [GRAPHIC] [TIFF OMITTED] T9534.007
    
    [GRAPHIC] [TIFF OMITTED] T9534.008
    
    [GRAPHIC] [TIFF OMITTED] T9534.009
    
    [GRAPHIC] [TIFF OMITTED] T9534.010
    
    [GRAPHIC] [TIFF OMITTED] T9534.011
    
    [GRAPHIC] [TIFF OMITTED] T9534.012
    
    [GRAPHIC] [TIFF OMITTED] T9534.013
    
    [GRAPHIC] [TIFF OMITTED] T9534.014
    
    [GRAPHIC] [TIFF OMITTED] T9534.015
    
    [GRAPHIC] [TIFF OMITTED] T9534.016
    

</pre></body></html>
